No.

1° 589 5
IN THE
SUPREME COURT OF THE UNITED STATES

IN RE DAVID ANGEL SIFUENTES a^BEraaNEM m

Ullii 1
ON PETITION FOR A WRIT OF MANDAMUS TO

FILED
SEP ' 0 2021

The United States Court of Appeals for the Sixth Circuit Case no. 21-1201

PETITION FOR WRIT OF MANDAMUS

David Angel Sifuentes III
439 More St. NE Unit 2
Grand Rapids, MI 49503
Ph: 616-283-5215

*1

QUESTION(S) PRESENTED

I. Is Sixth Circuit required to docket Petitioner’s Wirt of Mandamus filed around August
10, 2021 and the Rules of Appellate Produce Rule 21 require the clerk to immediately
docket and present the petition to the Court of Appeals Judges.
Petitioner “Yes”

II. Is the Sixth Circuit required to apply the case of Banister v. Davis, 140 S.Ct. 1648
(2020) to Petitioner’s Rule 60(b) motion.
Petitioner Wes”

- i

LIST OF PARTIES

“Yes” All parties appear in the caption of the case on the cover page.

RELATED CASES
Case No. 21-1201 6th Circuit
Case No. 21-5608 United States Supreme Court
Case No. 1:03-cv-637 Western District of Michigan

— (

i

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A : Sixth Circuit Order dates July 12, 2021.

APPENDIX B

APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES

hr f £caI'/w<V\ I/.

J

I7N iS{U Cr ^ooH)

C^A 6 »A C )

ewer ^ iW,

noto]

ktf nz Ale-2. (/. Lrdfb'i ,

C Z&OT^

7>

l f'

STATUTES AND RULES

2.? U-ir.C i Ife^l (« ?
M, n. fyp, P, z \
Fm- £. 0> ?< SO Lb)

f> Crtl.d.P, 2.1
f< t+, Mfc l b

{(
I I {
If

I ( I

(
111

II)
</

r<(

ffi

OTHER
I (( { r <

J

z

r, 6

t. 3

6

I I

I

*Tt

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF MANDAMUS

Petitioner respectfully prays that a writ of mandamus issue to review the judgment below.
OPINIONS BELOW

The opinion of the United States court of appeals appears at Appendix A to the
petition and is

1.

JURISDICTION

The date on which the United States Court of Appeals decided my case was July 12, 2021.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1651(a) SCt. Rule
20.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

28 U.S.C. § 1651(a)
14th Amendment Due Process

3.

STATEMENT OF THE CASE
Now comes, David Angel Sifuentes III, In Pro Se, petitions this Honorable Court to issue a
writ of mandamus to have the Sixth Circuit Court of Appeals Case no. 21-1201 apply this Courts recent
ruling of Banister v. Davis, 140 S.Ct. 1648 (2020) which they have ignored to decide if it applies to his
Rule 60(b) motion and also for not filing his writ of mandamus he filed on August 10, 2021, by filing
electronically by way of the 6th Circuit Pro se email filing system. Sifuentes only seeks relief in the form
that the Sixth Circuit file his writ of mandamus in accordance with FRAP 21 and 6 Cir. I.O.P. 21, which
requires that a petition be docketed and rule on his writ of mandamus. Since it has been filed no docket
has issued and the Clerk has stated that a team of specialized mandamus lawyers are reviewing the case
to decide if the writ of mandamus should be presented to the Judges. However after reviewing the rules
for a mandamus in the Sixth Circuit and speaking to the clerk around September 30, 2021 the clerk
indicated that the Sixth Circuit is busy and does not have time to file are review the matter even though
the rules require.

1

REASONS FOR GRANTING THE PETITION
Sifuentes seeks a writ of mandamus to have the Sixth Circuit address his Rule 60(b) issue if
the case of Banister v. Davis, 140 S.Ct. 1648 (2020), applies in his habeas case. Sifuentes sought
to amend his complaint in 2006 and the District Court and Sixth Circuit refused to address the
issue amend allow him to amend his 14th Amendment due process claim. Sifuentes sought to amend his
first
habeas petition on a motion to amend in 2006. Also, to have the Sixth Circuit docket and file his
writ of mandamus he filed on August 2021.
After completing his first habeas petition and multiple attempts to amend the Sixth Circuit and
the District Court ignored the issue. Sifuentes filed a Rule 60(b) motion in 2020 with the District
Court and brought the issue of Banister v. Davis, 140 S.Ct. 1648 (2020), to the Courts attention.
The District Court addressed all of Sifuentes claims for Rule 60(b) relief and never addressed
whether Sifuentes could obtain Rule 60(b) relief under Banister. The Sixth Circuit did the same.
See (Exhibit A). Sifuentes also filed a writ of certiorari concerning this matter. However, Sifuentes has
no adequate remedy to have his issue before this court addressed that is whether Banister will allow
Sifuentes to seek habeas relief as he brought his Rule 60(b) motion within one year of the
announcement of Banister, prior to the case there was no recourse to seek to have a state habeas
claim amended after the denial of a first habeas petition in the Western District Court of
Michigan Case No. 1:03-cv-637. Sifuentes sought to amend after his denial in 2006 of his first
habeas matter in the District Court but was overlooked. Also, there was a circuit split on whether
a state habeas applicant could seek to amend after denial in the district court on the first habeas
petition. The Sixth Circuit also did not permit a state habeas applicant to seek such relief and
would consider such requests as “second or successive”. See e.g. Abdur ’Rahman v. Bell, 392
F.3d 174 (6th Cir. 2004) (en banc).
Also, the ruling of Banister is an intervening change of habeas law and the Court should issue

r,

extraordinary” circumstance allowing Sifuentes to obtain Rule 60(b) relief under Gonzalez v.
Crosby, 545 U.S. 524 (2005). Sifuentes is not seeking to add claims but have his due process
claim of prosecutorial misconduct addressed which he sought to amend in 2006 only.
The Sixth Circuit also has not filed his writ of mandamus are addressed his questions he asked
in August 26, 2021. A writ should issue to have the Sixth Circuit file docket and address his writ
of mandamus
WHEREFORE, Sifuentes PRAYS that this Honorable Court issue a writ of mandamus to
address his claims of whether Bainster, would constitute rule 60(b) relief and file also docket and
address his issues he raised in his writ of mandamus he filed on August 2021.

i

CONCLUSION

The petition for a writ of mandamus should be granted.

Respectfully submitted,

Date^

/Jfrklw

ij

